<html>
<title> - HUMAN RIGHTS VETTING: NIGERIA AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                HUMAN RIGHTS VETTING: NIGERIA AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2014

                               __________

                           Serial No. 113-196

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-627 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lauren Ploch Blanchard, specialist in African affairs, 
  Congressional Research Service.................................     7
Colonel Peter Aubrey, USA, Retired, president, Strategic 
  Opportunities International....................................    19
Mr. Stephen Rickard, director, Washington Office, Open Society 
  Foundations....................................................    25
Ms. Elisa Massimino, president and chief executive officer, Human 
  Rights First...................................................    37
Ms. Sarah Margon, Washington director, Human Rights Watch........    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lauren Ploch Blanchard: Prepared statement...................    10
Colonel Peter Aubrey, USA, Retired: Prepared statement...........    21
Mr. Stephen Rickard: Prepared statement..........................    28
Ms. Elisa Massimino: Prepared statement..........................    40
Ms. Sarah Margon: Prepared statement.............................    51

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73

 
                         HUMAN RIGHTS VETTING: 
                           NIGERIA AND BEYOND

                              ----------                              


                        THURSDAY, JULY 10, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone.
    As we all know, Boko Haram has significantly accelerated 
its acts of mass murder and abduction in Nigeria, requiring a 
more robust and effective response from the Government of 
Nigeria and friends like the United States.
    According to the most recent report by the Internal 
Displacement Monitoring Centre and the Norwegian Refugee 
Council, there are now some 3.1 million Nigerian internally 
displaced persons, or IDPs, more than every other country in 
the world except for Syria and Colombia.
    The U.N. High Commissioner for Refugees estimates that 
there are now more than 10,000 Nigerian refugees in Niger and 
Cameroon. According to the International Rescue Committee, due 
to credible fears of abduction, as many as 1,000 refugees a 
week, 80 percent women and girls, are fleeing to the nearby 
country of Niger from Nigeria's Borno State alone.
    Former U.S. Ambassador to Nigeria Robin Renee Sanders 
testified before this subcommittee on June 11 that the fight 
against Boko Haram will be a ``long war,'' as she put it, but 
that the Nigerian military and security forces are 
insufficiently trained and ill-equipped to meet the challenge 
of a savage, relentless violence unleashed by Boko Haram.
    Just this morning she told a Capitol Hill forum on Boko 
Haram that in the vacuum created by delays in training Nigerian 
forces vigilante groups have now been formed. They have been 
there, but now they are growing in number, and are themselves 
committing human rights abuses.
    According to the current State Department human rights 
report, Boko Haram is responsible for the most heinous human 
rights violations in Nigeria, but that same report tells us 
that elements of the Nigerian Armed Forces and security 
apparatus have committed serious human rights abuses as well 
with little or no accountability.
    Even in the face of serious threats to Nigerian and 
regional security, the U.S. Government, which has a 
longstanding alliance with the Federal Republic of Nigeria, has 
experienced some obstacles in providing the security assistance 
necessary to help our ally address this dire emergency.
    Laws our Congress created to prevent our alliance with 
rogue military and security forces are being blamed, by some, 
for making our assistance more difficult to provide. But is the 
law the problem, or, rather, is it how the law is being 
applied? Or is it that the U.S. has not attempted to train 
sufficient numbers of human rights vetted Nigerian forces? Or 
is it the Nigerians themselves not wanting that kind of 
training?
    What is the targeted number for trained Nigerians? For this 
year and the future, how many trainers have been committed to 
this task? I believe the Leahy laws are a necessary component 
of a prudent human rights policy, and today's hearing is in 
large part intended to find out whether there are legitimate 
obstacles to their implementation.
    At the outset, I would like to make clear that I have long 
supported human rights vetting to allow for training of those 
who pass muster. One example of many, as chair of the then-
Subcommittee on International Operations and Human Rights, I 
chaired a hearing on Indonesia on May 7, 1998, featuring a man 
by the name of Pius Lustrilanang, who was tortured by members 
of the Indonesian military amid deep concerns that those 
involved may have been trained under our Military Education and 
Training Program, or IMET.
    In like manner, I and others were concerned that U.S.-
trained Indonesian troops may have been complicit in 
slaughtering people in East Timor. On a fact-finding trip to 
Jakarta, I sought but never received the names of specific 
individuals trained by the U.S., including members of the elite 
Kopassus unit, who slaughtered dissidents as the Suharto 
government fell.
    Similar training concerns were expressed by me and others 
concerning the Joint Combined Exchange Training, or JCET, and 
the Rwandan Patriotic Army during the period when the RPA was 
engaged in the killing of refugees in Zaire, now the Democratic 
Republic of the Congo.
    Moreover, in 1999, Congress passed my legislation--and Ms. 
Massimino will remember this well, because she testified at 
several of those hearings that we had--that suspended all U.S. 
Federal law enforcement support and exchanges with the British 
police force in Northern Island, known as the Royal Ulster 
Constabulary, until the new human rights training programs were 
implemented there, and until programs were established to vet 
out any RUC officers who engaged in human rights abuses from 
benefiting from American training and preparation.
    The vetting legislation worked. Exchanges and training at 
FBI facilities for RUC officers were suspended for more than 2 
years, until President Bush certified that the British had 
established a system to vet and block anyone who committed or 
condoned human rights violations from the program.
    As my colleagues know, according to the current Quadrennial 
Defense Review, we are in a time of increased danger from 
terrorist forces in foreign nations, while shrinking budgets 
force our military and security forces to become smaller and 
leaner.
    The QDR states, and I quote in pertinent part, ``The 
Department of Defense will rebalance our counterterrorism 
efforts toward greater emphasis on building partnership 
capacity, especially in fragile states.'' One manifestation of 
that developing policy is the President's proposal to allocate 
$5 billion to a new counterterrorism partnership fund.
    I have visited Nigeria twice in the past 9 months alone and 
have chaired several hearings on security in Nigeria in the 
past two Congresses alone. Just last month I met with U.S. and 
Nigerian officials to find out why our security assistance has 
been so difficult to provide when the need is so increasingly 
great. Is it the process, or has the administration not sought 
to seriously expand training? I don't know.
    You will notice that the Department of State is not 
testifying today. That is partly because Assistant Secretary of 
State for Democracy, Human Rights, and Labor, Tom Malinowski, 
was unavailable when we invited him to testify. And I know he 
will come at a future date and hopefully very soon. But it may 
also be partly due to an abundance of caution surrounding even 
a discussion of difficulties experienced in implementing the 
Leahy laws.
    For example, when I was in Abuja last month, I asked our 
Embassy to provide me with their best recommendations, and I 
would share it with everyone here, for making the Leahy vetting 
more effective, so that we can provide the much needed aid to 
the Nigerian Government and end the increasing slaughter and 
kidnapping of innocents, such as the Chibok schoolgirls. 
Despite initial assurances of cooperation, I have yet to 
receive the information, but I will keep asking.
    I understand that not everything can be said publicly or 
should be said publicly, but, again, this law was created with 
full transparency, passed the Senate at the behest of Senator 
Leahy, and has been renewed year in and year out, often with 
tweaks and changes to it.
    As my colleagues know, we refer to the Leahy laws because 
there are actually two of them, one for the Department of State 
and one for the Department of Defense. Together they cover 
material assistance, including equipment and training. These 
laws require investigation of alleged human rights violations 
by military and security forces, including police.
    These investigations performed mostly by the Department of 
State require details on not only individuals but also military 
units. Failure to obtain such information as name and date and 
place of birth can sometimes prevent an investigation and put 
it into limbo.
    National government officials may consider such information 
an invasion of their sovereignty, although we ought to do more 
to convince them why that is not so, but to avoid aiding and 
abetting rogue elements, we must know if a perpetrator of abuse 
is a man from Jos or a man with the same name from Kano State, 
as one example.
    If individuals or elements of a larger force are guilty of 
human rights violations, entire battalions or regimens can be 
tainted unless the guilty are identified and separated out from 
those forces that are innocent of such crimes. The Leahy laws 
allow for the recreation of clean units. On the surface, it 
would seem that such a policy is clear and possible to 
implement. Unfortunately, it has not been so simple in 
practice.
    Despite the fact that Sarah Sewall, Under Secretary of 
State for Civilian Security, Democracy, and Human Rights told 
the full Foreign Affairs Committee on May 21 in this room that 
at least half of the Nigerian military and security forces are 
clear of allegations of human rights violations, we continue to 
be told that Leahy vetting is at least slowing the provision of 
security assistance.
    According to Congressional testimony by Principal Deputy 
Assistant Secretary of State Robert Jackson, there are an 
estimated 187 Nigerian military units and 173 police units that 
have been cleared, but very few Nigerian units have been 
trained or are in training today. Again, the big question: Why?
    Our Government provides approximately $15 billion in 
security assistance worldwide each year, involving 158 
countries, yet there are only 13 headquarters staff handling 
Leahy vetting, in addition to Embassy personnel. Is this a sign 
that these laws are not being taken seriously enough by our own 
Government and is there a requirement for additional spending?
    In the current fiscal year, the Department of State is 
receiving $2.75 million to conduct Leahy vetting. In the newest 
bill, the Senate has $5 million. Perhaps that will be enough; I 
don't know. I would hope our distinguished witnesses will shed 
some light on that.
    Of the 158 countries we provided assistance to, 46 had some 
aid withheld in 2011. The typical percentage of global Leahy 
vettings that don't meet requirements is about 1 to 2 percent, 
with just under 10 percent ``suspended.'' In Fiscal Year 2012, 
according to testimony from the Congressional Research Service 
expert, Lauren Ploch, the State Department vetted 1,377 members 
of the Nigerian security forces. And of that figure, 85 percent 
were cleared to receive assistance, with 15 percent rejected or 
suspended.
    In Colombia, the government rejected the requirements of 
the Leahy laws before changing their minds and accepting the 
process. Now there reportedly are more high-ranking Colombian 
and military officials and officers behind bars than in any 
other country other than Argentina, and Colombia is cited as a 
Leahy law success.
    In Nigeria, there have been no disciplinary actions against 
Nigerian military for scorched earth assaults on populations, 
and few high-ranking Nigerian military officers have been held 
accountable for human rights violations.
    We are here today to examine the questions that these facts 
raise, and other facts, and our witnesses have been asked to 
walk us through the process, tell us what works and what 
doesn't, and suggest ways to make this process more effective.
    I would like to now turn to my distinguished colleague, Mr. 
Cicilline, for any opening he might have.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you to 
you and Ranking Member Bass for calling this important and 
timely hearing.
    As we all know, the security situation in Nigeria has 
deteriorated seriously in recent months with the expansion of 
Boko Haram, which in April brazenly kidnapped hundreds of young 
schoolgirls. This committee and this Congress passed a 
resolution condemning these kidnappings, and I think we all 
remain committed to providing as much U.S. assistance and 
advice as can be effective to support the Nigerian Government's 
efforts to secure the return of these schoolgirls and to stem 
the violence of this brutal and violent terrorist organization.
    Maintaining robust enforcement of the Leahy laws, which 
serves as the primary safeguard, assuring that the United 
States is not contributing to human rights violations through 
its military foreign assistance is, I believe, a necessity if 
we are to maintain credibility with local populations, not to 
mention do the right thing by ensuring that we are not 
supporting or assisting those violating basic human rights.
    So I look forward to hearing the testimony today, and I am 
particularly interested in hearing our witnesses address how we 
can move forward in a constructive way to assist the Nigerian 
Government while ensuring that the units we support honor the 
most basic tenets of human rights and international law.
    With that, I thank you, Mr. Chairman, and yield.
    Mr. Smith. Thank you. I would like to yield to Mr. 
Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman. Thank you for 
allowing me to participate in this important hearing and for 
your 30 years of dedicated commitment to the plight of human 
rights and religious liberties and freedoms of conscience 
throughout the world.
    Thank you, witnesses, for appearing before us today.
    The purpose of this hearing, clearly, is very important, as 
we work to ensure that we are taking appropriate actions to 
curb human rights violations around the world, while at the 
same time not undermining our own national security, the 
continued attacks aimed at the young girls, then kidnapping and 
selling those girls into human trafficking, is the most 
egregious act and cannot be tolerated.
    In May, I sent a letter to the President, joined by over 
170 of my colleagues, urging all possible action to find and 
protect those girls. The issue we face, however, is what 
actions can or should we be taking to support a foreign 
military who has been continually engaged in politically 
motivated killings, torture, and excessive use of force, or 
that have just been negligent in securing their country from 
those who engage in this egregious abuse.
    I look forward to your testimony as we will be considering 
the issue on the House floor in the coming weeks.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Smith. Thank you. I would like to yield to our ranking 
member, Karen Bass from California.
    Ms. Bass. Thank you, Mr. Chair, for holding this hearing. I 
look forward to the testimony of our witnesses today, and I 
don't want to take a lot of time. I want to jump right into it. 
But I am hoping that as part of the testimony and looking at 
the subject of human rights that someone will address the issue 
and legislation that is occurring in regards to LGBT 
individuals and the way we have seen draconian legislation 
passed in a variety of places, and hopefully you will comment 
to that in your testimony.
    Mr. Smith. I would like to now introduce our distinguished 
witnesses, beginning with Ms. Lauren Blanchard, who is a 
specialist in African affairs at the Congressional Research 
Service, where she provides analysis on African political, 
military, and diplomatic affairs, and on U.S. policy in the 
region, to Members of Congress, committees, and staff.
    She has written extensively on security issues and U.S. 
military engagement on the continent, speaks regularly at 
academic institutions and international policy fora in the 
United States and abroad, and has conducted training in various 
countries across Africa for parliamentarians and other 
government officials on the policymaking role of the Congress. 
Previously, she worked at USAID, as well as in the United 
States Senate.
    We will then hear from Colonel Peter Aubrey, who is 
currently the president of Strategic Opportunities 
International and has served in a variety of staff and command 
assignments during both peacetime and war. He served as the 
initial director of security cooperation for the U.S. Army in 
Africa, previously served as an Army attache in Nigeria and 
many other countries across Africa, including Burundi at the 
height of its civil war.
    During the Gulf War, Colonel Aubrey advised Saudi troops 
and commanded special forces in combat, and he has been awarded 
the Bronze Star for Valor. Thank you for your distinguished 
service.
    We will then hear from Mr. Stephen Rickard, who directs the 
Open Society's Washington office advocates working on both U.S. 
domestic and international issues. He has had a distinguished 
Washington career on Capitol Hill in the State Department and 
with human rights organizations.
    Before joining Open Society, he created and managed the 
Freedom Investment Project, working to encourage U.S. support 
for international justice. Mr. Rickard served as director of 
the Robert F. Kennedy Memorial Center for Human Rights and as 
Washington director for Amnesty International USA. And he, too, 
is no stranger to this committee, and when he was in that 
position in particular often came up on the Hill and advised us 
and testified. Prior to that, he worked at the U.S. Department 
of State, as well as in the U.S. Senate.
    We will then hear from Ms. Elisa Massimino, who has been 
the president and chief executive officer of Human Rights First 
since 2008, and she helped established the Washington office in 
1991 and served as the organization's Washington director from 
1997 through 2008. She has a distinguished record of human 
rights advocacy in Washington, as a national authority in human 
rights law and policy.
    She has testified before Congress dozens of times, and I 
think at least a dozen before my subcommittee, including this 
subcommittee, and writes frequently for mainstream publications 
and specialized journals. The Washington newspaper, the Hill, 
has repeatedly named her as one of the most effective public 
advocates in the country.
    And, finally, we will hear from Sarah Margon, who is the 
Washington director of Human Rights Watch. Prior to joining 
Human Rights Watch, she was associate director of Sustainable 
Security and Peace Building at the Center for American 
Progress, where she researched and wrote on a wide range of 
issues, including human rights, foreign aid, good governance, 
and global conflicts and crises.
    She also served in the U.S. Senate as staff director of the 
Senate Subcommittee on Africa Affairs, became a senior policy 
advisor for Oxfam America, and worked at the Open Society 
Institute.
    Ms. Blanchard, if you would begin.

STATEMENT OF MS. LAUREN PLOCH BLANCHARD, SPECIALIST IN AFRICAN 
            AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Ms. Blanchard. Chairman Smith, Ranking Member Bass, and 
distinguished members of the subcommittee, thank you for 
inviting CRS to testify today. In my brief statement this 
afternoon, I will focus on the laws that require human rights 
vetting and their application in Nigeria. I would ask that my 
written testimony be submitted for the record.
    Mr. Smith. Without objection, so ordered.
    Ms. Blanchard. The State Department vets foreign security 
force units prior to providing U.S. assistance based on policy 
concerns and to comply with two legal provisions named for 
their original sponsor, Senator Patrick Leahy. They are just 
two of the many laws that Congress has enacted to promote human 
rights and to protect the U.S. image abroad by distancing the 
United States from abusive governments and security forces.
    The first provision is codified in the Foreign Assistance 
Act and applies to foreign aid programs and those authorized 
under the Arms Export Control Act. It prohibits assistance to 
foreign security force units credibly implicated in gross human 
rights abuses.
    The second provision, which applies to security assistance 
funded through DoD, has appeared in annual defense 
appropriations acts since 1998. Both provisions have been 
modified over time, as have the procedures for human rights 
vetting.
    The State Department and DoD Leahy provisions are similar, 
but not identical, and in recent years legislation has brought 
the two provisions closer together. The foreign aid provisions 
apply to all forms of assistance. The DoD provision initially 
applied only to training, but was expanded in the past year to 
include equipment and other assistance.
    Some differences remain, notably in the standards for the 
remediation of units deemed ineligible for assistance, and in 
the exceptions and existence of a waiver authority in the DoD 
provision. The FAA provision allows no exception from the law 
except through the credible remediation of the tainted unit, 
although aid could be provided through measures framed in law 
with notwithstanding provisions.
    The DoD Leahy provision, on the other hand, includes 
exceptions for equipment and other assistance ``necessary to 
assist in disaster relief operations or other humanitarian 
international emergencies.'' The DoD provision also allows the 
Secretary of Defense to waive the provision in extraordinary 
circumstances. To date, however, DoD has never issued a waiver, 
suggesting a very high bar for use.
    Despite the differences in the two laws, in practice DoD 
and the State Department general implement the Leahy laws 
similarly. Leahy vetting is a multi-stage process that begins 
at U.S. Embassies abroad and concludes at State Department 
headquarters. During the process, the names of potential 
candidates for U.S. assistance are checked against a variety of 
sources for derogatory information. In the past 2 years, the 
process has resulted in an approval rate for more than 90 
percent of candidates and in an outright denial for fewer than 
1 percent.
    Growing DoD emphasis on partnering with foreign militaries 
to address threats such as terrorism has brought increased 
attention to the Leahy laws. Some military commanders have 
implied in some cases that the laws have complicated their 
ability to build foreign counterterrorism and counternarcotics 
capabilities. Others suggest that U.S. training could improve 
the behavior of abuse of forces by imparting U.S. values and 
respect for human rights and the rule of law.
    Attention to Leahy laws may intensify as DoD and the State 
Department determine what effect the new broader DoD Leahy 
provision will have on security assistance overseas. The 
expanded provision is repeated in the House version of the FY15 
Defense Appropriations Act, and the Senate Armed Services 
Committee has proposed to codify the provision this year.
    As recent hearings have highlighted, the United States is 
currently seeking to balance security and human rights concerns 
in Nigeria. U.S. security assistance to Nigeria has been 
constrained by both law and policy concerns, and the security 
relationship has been hampered at times by a lack of 
cooperation from Nigerian officials and by systemic problems in 
the Nigerian military.
    Nigerian security force abuses in the context of operations 
to counter Boko Haram have complicated efforts to pursue 
greater cooperation despite shared concerns about the group. 
Political and human rights concerns have been a prominent 
factor in shaping U.S.-Nigeria relations for decades.
    State Department reports have continued to highlight 
serious human rights violations by the Nigerian security forces 
for every year since the transition from military rule in 1999. 
According to the State Department, the information on security 
force abuses currently implicates roughly half the units in the 
Nigerian military, and likely would render those units 
ineligible for assistance if they were submitted for vetting.
    Despite restrictions on some units, U.S. security 
assistance to Nigeria is sizeable by regional standards, 
totaling almost $20 million in FY2012 State Department funding, 
and $16 million in FY2013. DoD funding for Nigeria has been 
limited, but appears set to expand under a proposed New Global 
Security Contingency Fund Program.
    Multiple systemic factors constrain the effectiveness of 
the Nigerian security force response to Boko Haram; notably, 
security sector corruption and mismanagement. Some of these 
factors impede U.S. support, even for units cleared for 
assistance. Many soldiers, particularly those in the northeast, 
reportedly suffer from low morale, and they have struggled to 
keep pace with a foe that is increasingly well armed and well 
trained.
    By many accounts, Nigerian troops are not adequately 
resourced or equipped to counter the insurgency, despite a 
security budget approaching $6 billion. In the assessment of 
DoD officials, Nigerian funding for the military is skimmed off 
the top.
    DoD officials have assessed the Nigerian forces as ``slow 
to adapt to new strategies, new doctrines, and new tactics,'' 
and have described Nigeria as ``an extremely challenging 
partner to work with.'' U.S. officials have sought to encourage 
the government to take a more comprehensive counterterrorism 
approach, and one that is, in the words of one of DoD official 
to Congress, less brutal. One of the primary aims of DoD 
engagement is to ``convince the Nigerians to change their 
tactics, techniques, and procedures in the northeast.''
    The State Department suggests that the Leahy laws have 
provided a strategic tool to encourage reforms in Nigeria, and 
in Africa more broadly. The Nigerian military has sought to 
develop its own civilian protection and human rights monitoring 
and training in the past year, and the Nigerian President 
recently ordered more human rights training for officers.
    Nigerian officials have also made statements suggesting an 
evolving counterterrorism strategy, one that seeks not only 
security but also political and economic solutions. In sum, 
Nigeria provides an example of the challenges U.S. policymakers 
face in building foreign counterterrorism capacities.
    By many accounts, developing countries like Nigeria that 
are struggling with terrorist threats may desperately need the 
specialized skills and support that U.S. security assistance is 
designed to provide. But when security forces abuse civilians, 
U.S. engagement may risk not only tainting the U.S. image, but 
also may fuel popular grievances and alienate local 
populations.
    U.S. officials continue to explore ways to improve the 
vetting process in the dialogue with partner governments to 
enhance effectiveness in accountability and to mitigate the 
risk that U.S. partners might not use U.S. assistance 
responsibly.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Blanchard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    I would like to now ask Colonel Aubrey if he would present 
his comments to the subcommittee.

  STATEMENT OF COLONEL PETER AUBREY, USA, RETIRED, PRESIDENT, 
             STRATEGIC OPPORTUNITIES INTERNATIONAL

    Colonel Aubrey. Chairman Smith, Ranking Member Bass, 
distinguished members of the subcommittee, thank you for 
inviting me here today.
    As requested, I will focus my remarks today on what are 
commonly called the Leahy laws, which prohibit the provision of 
U.S. security assistance to foreign security force units that 
have been credibly implicated in violations of human rights.
    I previously submitted written comments to the subcommittee 
and request that they be entered into your record.
    Mr. Smith. Without objection, so ordered. And that of all 
of our distinguished witnesses will be made a part of the 
record, your statements and any material you would like 
attached to it.
    Colonel Aubrey. Thank you. Rather than reading what I had 
previously submitted, I would like to give some observations on 
security assistance that I have encountered in a 30-plus year 
career that focused on foreign internal defense, security 
assistance, and security cooperation as they affect training in 
Nigeria.
    Nigeria is a particularly difficult case. During my tour 
there from 2006 to 2008, I served with three different Chiefs 
of Army Staff. Two were American-trained, and I enjoyed good 
access and a large degree of cooperation. The third was not 
U.S.-trained, was uncooperative, and routinely refused to 
facilitate vetting for U.S. training, claiming it was an 
unreasonable infringement of Nigerian sovereignty.
    My team and I got the job done. It wasn't pretty, it wasn't 
prompt, and it definitely wasn't easy. Vetting can be near 
impossible. The standards are not beyond reasonable doubt, but 
credible. A misspelled name can result in unintentional 
blacklisting, and the system does not lend itself to 
correction. And, more importantly, you have to have the host 
nation cooperating. If they do not cooperate, the system fails.
    There is no simple answer on how to solve vetting, 
training, and access in Nigeria. Corruption, poor leadership, 
regional differences, tribal issues, and religious conflicts 
plague Nigeria and its armed forces.
    Previous sanctions have led to a generation of leadership 
not enamored with the United States, having been trained, 
mentored, and cultivated by some of our global competitors. 
Nigeria does not have a command and control infrastructure that 
will allow its commanders in the field to have direct controls 
of his forces, relying on cell phones and in some cases runners 
to pass messages.
    Training is inadequate. Soldiers receive an inadequate 
amount of ammunition to train with. Officers frequently abuse 
their authorities, and there is no real professional NCO corps.
    The units that we have focused our attention on, usually 
those earmarked for external U.N.-sponsored peacekeeping 
missions, perform at a much higher standard, but still suffer 
from the problems I describe. At the same time, the Nigerians 
are fiercely proud of their accomplishments. They have West 
Africa's War College. They offer officer training to their 
neighbors.
    They have successfully deployed to neighboring countries, 
and they participate in regional exercises and deployments. All 
of these issues help set the stage for the dilemma that is 
Nigeria and the difficulties faced in providing training to 
help combat the surge of Islamic extremism in the northeast and 
their inability to contain the violence.
    Nigeria's problems of vetting can be found almost 
everywhere. In Liberia, the Liberian Armed Forces, a force 
recruited, vetted, trained, and still mentored by U.S. 
personnel, still have training delayed by vetting requirements, 
and we know that their force has not been accused of human 
rights violations.
    The rest of Africa has similar stories. In my written 
testimony, I passed a story relayed to me by one of my former 
subordinates that in Uganda a misfire occurred in an attempt to 
rehabilitate a blacklisted unit. The end result was the 
blacklisting of the officer involved in the rehabilitation 
attempt, rather than the rehabilitation of the blacklisted 
unit.
    I offer these following recommendations to the committee 
for consideration. Authorize DoD human rights training in a 
broad category of subjects similar to the expanded IMET program 
that we executed in the 1990s. Allow engagement that is 
designed to professionalize those errant forces, teach the law 
of land for human rights, the military role in civil societies, 
and other such subjects. Develop an exit strategy for the bad 
units and individuals that will build for the potential for 
full engagement. Rehabilitate and professionalize, rather than 
punish. And, finally, develop some type of vetting process for 
units like the LAF.
    If we don't engage, our global competitors can and usually 
will.
    I want to thank this committee for this opportunity, and I 
stand ready to answer your questions.
    [The prepared statement of Colonel Aubrey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Colonel Aubrey, thank you very much for your 
testimony. And coming from someone who actually was in the 
Embassy, provided this kind of training and vetting, it is very 
important that we receive your insights.
    Colonel Aubrey. Thank you.
    Mr. Smith. We would like to hear from Mr. Rickard, if you 
could provide your testimony.

STATEMENT OF MR. STEPHEN RICKARD, DIRECTOR, WASHINGTON OFFICE, 
                    OPEN SOCIETY FOUNDATIONS

    Mr. Rickard. Thank you very much, Mr. Chairman, and thank 
you for holding the hearing. And thank you, Ranking Member 
Bass, and the other distinguished members of the committee for 
your commitment to human rights and to Africa, as demonstrated 
by your service on this important subcommittee. And I would be 
very happy to talk about some of the LGBT issues that the 
ranking member raised, which are extremely important.
    I have worked on the Leahy law, in one form or another, for 
nearly 17 years. And I have discussed them with countless State 
Department and Defense officials, as well as human rights 
experts all over the globe. And the Leahy laws are just common 
sense. They prohibit the United States Government from arming 
and providing military training to security force or police 
units abroad that have been credibly alleged to commit a small 
list of the very worst human rights violations.
    These laws do not prohibit the United States from providing 
assistance, even in the most violent conflict-wracked 
countries, like Nigeria and Colombia. On the contrary, because 
the Leahy law involves a unit-by-unit examination of human 
rights records, the Leahy laws provide a formula for the United 
States to engage in countries like Nigeria. They are a formula 
for success in those countries, not a prohibition on 
engagement.
    Indeed, Colonel Aubrey's description of the success story 
in Liberia in his written testimony seems to me a perfect 
example of what can be accomplished when we build human rights 
vetting and training into our system from the ground up. If it 
can work in Liberia, and it can work in Colombia, it can work 
in Nigeria and elsewhere.
    I would like the members of the committee to keep in mind 
four numbers when you think about the Leahy law. The first is 
530,000. That is the number of units that the United States 
Government had considered training in just the last 3 years, 
530,000.
    The second number is 90 percent. That is the number of 
those units that got a quick response, a green light to proceed 
after they were vetted, generally within 10 days. There is even 
a fast track procedure for countries that have generally good 
human rights records.
    The third number, which you referred to, Mr. Chairman, is 1 
percent. Less than 1 percent of the time a unit is prohibited 
from receiving assistance under the Leahy law. It is not a 
burdensome requirement.
    But the final number is 2,516. The Leahy law blocks aid in 
a tiny percentage of cases, but that doesn't mean it is 
unimportant. And 2,516 is the number of vetted units that the 
U.S. Government found to be credibly involved in gross 
atrocities in just the last 3 years.
    In other words, without the Leahy laws, this hearing 
wouldn't be about a handful of units that DoD would like to 
work with but can't because of their atrocious human rights 
records; this would be a hearing about the 2,516 units that we 
did assist, that we gave guns to, that we gave military 
assistance to, and only later discovered that members of those 
units had committed murder, rape, and torture. The Leahy law 
stopped that, and it stopped it 2,516 times in just the last 3 
years.
    Those 2,516 units weren't being asked to meet a high 
standard. The Leahy law doesn't require pristine forces. The 
State Department defines gross human rights violations to cover 
five gross crimes: Murder, torture, rape, disappearances, and 
other gross violations of life and liberty. That is it. And the 
Leahy law doesn't even prohibit you from working with those 
units if the government will clean them up.
    So when someone tells you that we can't work with a unit, I 
would encourage you to ask three questions. The first is, what 
did the unit do that got it on the list? If we can't work with 
them, it must mean that the United States has determined that 
that unit is one of the worst of the worst. It is in the 1 
percent of units that the U.S. found credible information that 
they were committing murder, rape, torture, disappearances, or 
other gross crimes.
    Second question: Why won't the government clean them up? 
The Leahy law lets you work with a unit if the government will 
take effective action. Maybe the government, as Colonel Aubrey 
has said, doesn't accept the U.S. commitment or it considers it 
an infringement on its sovereignty. Maybe it doesn't want to 
let the U.S. tell it what to do. Maybe the government has no 
control over the units, and it can't clean up the units, even 
if it wants to. But ask yourself: Why won't the government or 
can't the government clean up these units?
    And finally; ask, if we know or believe that these units 
have committed the worst of the worst offenses, if the 
government will not or cannot clean up the units, why should 
the U.S. taxpayers pay to give those units, those specific 
units rather than other units, guns and military training?
    There are a number of things that could be done to improve 
the Leahy law, and I think there is a lot of common ground 
here. We should increase funding for vetting. And I would note 
that since Colonel Aubrey's examples in Nigeria, there has 
already been a revolution in Leahy law vetting. An excellent 
database has been created. There are now 13 professional 
vetters who do this work. There is in fact a system to correct 
mistakes in the document. So there has been enormous progress 
in the last few years.
    Two, we should make remediation and vetting a cost of doing 
business. We should set aside one penny out of every dollar to 
just say, ``This goes to vetting and fixing the bad units.'' If 
we want to be in Nigeria, that is just a cost of doing business 
there.
    Three, we should train people. Many of the examples that 
Colonel Aubrey cites are examples of misunderstandings of the 
law. And if people had simply understood the law better, 
including the case that he cites in Uganda, that problem would 
have never arisen. So more training would be better.
    In my written testimony, I respond to many of the common 
criticisms of the law, and I would be happy to do so in 
response to questions. But I would like to ask people to 
consider what the lower standard would be below the Leahy law. 
Should we take rape off the list of gross human rights 
violations? Should we take murder off the list? Should we say 
that if you haven't murdered anybody in 2 years, or 4 years, 
that is enough; now we will give you guns? Do we have a statute 
of limitations? This is the rock bottom human rights 
requirement that we should have.
    Mr. Chairman, I am a preacher's kid, and the Bible tells us 
that--in the Book of Acts--before his conversion on the road to 
Damascus, the Apostle Paul was a persecutor of the Christian 
church. In fact, according to Acts, he was present at the 
killing at Saint Stephen, my namesake.
    But the Bible tells us that he cast no stones himself at 
the killing of Saint Stephen. What he did was he held the 
cloaks of the people who did. He cast no stones, but he was 
complicit. He gave support to the people who did.
    And when we go to places like Nigeria, shouldn't we at 
least ask ourselves, whose cloaks are we holding? Who are we 
handing stones to? That is what the Leahy law asks. That is all 
that it asks. Let us not be complicit in the worst human rights 
abuses in places like Nigeria.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rickard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Rickard, thank you very much for your 
testimony.
    We will take a short recess. There are a number of votes 
occurring on the floor. We have about a minute to get over and 
vote. So we stand in recess. Thank you.
    [Recess.]
    Mr. Smith. The subcommittee will continue its hearing.
    And Mr. Pittenger does have to go, but he would like to ask 
a question of the panelists, and then we will go to Ms. 
Massimino.
    Mr. Pittenger. Thank you. Really appreciate the good work 
that you all do, and certainly hope that our advocacy can make 
a difference for the lives of these wonderful people.
    A motto I have lived by is inspect what you expect. So I 
would like to ask you, as we take a little bit more depth in 
the effectiveness of the Embassies, the DoD, and the State 
Department, and how they are doing in the vetting process. A 
fundamental piece of this discussion is knowing whether we are 
accurately identifying the good actors or if we are 
misidentifying bad actors as good ones.
    Ms. Blanchard, can we start with you?
    Ms. Blanchard. That is a tough question. You know, the 
Embassies in many of these countries have to rely greatly on 
groups like Human Rights Watch and Amnesty International for 
the reporting. I mean, these Embassies are only staffed, 
particularly in Africa, by small staffs. So they are relying on 
that reporting, and then they have to determine whether that 
reporting is credible or not.
    They also, you know, benefit from local journalists and 
local NGOs, and they have the very difficult task, particularly 
in countries like Nigeria that are strategically important, 
that face serious threats, in determining whether that 
information is valid on a security force unit or not.
    So I think that, you know, there is a lot of challenge 
there. And when you have got short-staffed Embassies, it is----
    Mr. Pittenger. Sure. Makes a difference. Anybody else that 
would like to respond to that?
    Ms. Margon. I would be happy to make a quick response. I 
think the short answer is it depends. It varies very much from 
Embassy to Embassy. In some cases, it is particularly dependent 
on the Ambassador at the Embassy. We have seen a real overhaul 
in vetting in certain Embassies. I think the U.S. Embassy in 
Colombia has done a very good job of putting human rights 
vetting to the forefront of its relationship with the security 
forces there.
    Doesn't mean the relationship is perfect. It doesn't mean 
the security forces themselves are perfect. In fact, they are 
quite the opposite still. But it has become a central part of 
the conversation, and each side knows what is expected.
    The other piece that I would just add very briefly is that 
this is an important question because it is essential that the 
executive branch embrace the Leahy law and human rights vetting 
as part of its foreign policy, and so that they do a job both 
at the Foreign Service Institute in training officers but also 
encourage the military to train officers to understand the law, 
what it means to apply it, what the expectations are, and how 
to clean, if you will, units that have been dirty.
    Mr. Pittenger. Ms. Massimino?
    Ms. Massimino. Yes. I am so glad you asked that question, 
because there is another asset that we have or that we could 
exploit more fully in the Leahy vetting process, and that is, 
in addition to internationally focused NGOs, the local NGOs 
often have the best, most up to date, most reliable 
information, but a lot of times they don't understand how the 
process works, what level of detail they need, the form that 
the information needs to be in.
    So it would be worth our while, I think, a good investment 
in reaching out, in having the Embassies reach out to those 
local human rights defenders, explain to them what the Leahy 
law is, solicit their information, develop relationships with 
them.
    You know, the State Department has issued these human 
rights defender principles, guidance on how Embassies ought to 
interact with human rights activists in-country, and it really 
is kind of a blueprint for how to develop good relationships 
with those NGOs. And if those were fully implemented, I think 
we would have an additional resource in making sure that the 
vetting is well done.
    Mr. Pittenger. Thank you.
    Colonel?
    Colonel Aubrey. The only thing I would add to the 
discussion is the need to do a whole of Embassy approach on 
that, make sure that the defense attache is incorporated in 
there.
    Part of the problem is, on the identification, is making 
sure that the units are properly identified. That DAT is going 
to know that the unit that came out of Sokuto that had this 
type of unit patch, that had this type of equipment that 
committed the violation was a particular unit.
    And that way, even if the people reporting it don't 
understand the military order of battle, is that with a whole 
of Embassy approach--and you actually ask the accurate 
questions--it can actually be pinpointed properly.
    Mr. Pittenger. Thank you.
    Mr. Chairman, I have one more question, if that is okay.
    Mr. Smith. Yes, it is.
    Mr. Pittenger. Thank you. Well, I would like to hear your 
thoughts on the real impact of the Leahy laws, that they have 
had. Do you feel that foreign countries have been impacted by 
our reluctance to aid security forces engaged in human rights 
violations? And, if so, could you give possible examples of 
what actions that they have taken?
    Ms. Blanchard. In terms of effectiveness of the Leahy law, 
I think some of it depends on how much the country wants our 
assistance, and I think this may be a question in the case of 
Nigeria. In cases that want U.S. assistance, and there are a 
few on the continent that I think of as an example, countries 
like Colombia, if they want U.S. assistance, then they will 
generally comply with our rules and regulations.
    And often you will see even senior military people switched 
out and units go through this process of remediation. And the 
clearer that the Embassy staff can be with the host country on 
how that remediation process works, the more likely we are to 
see accountability.
    If a country doesn't want our assistance, then how 
effective can the vetting be? And that is----
    Mr. Pittenger. Sure. Thank you very much for your 
dedication and your good work.
    And, Mr. Chairman, thank you for the courtesy----
    Mr. Smith. Thank you very much, Mr. Pittenger.
    Mr. Pittenger [continuing]. Of asking. I appreciate it.
    Mr. Smith. Ms. Massimino, if you could proceed.

STATEMENT OF MS. ELISA MASSIMINO, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, HUMAN RIGHTS FIRST

    Ms. Massimino. Thank you, Mr. Chairman. And thank you, 
members of the subcommittee. I appreciate the opportunity to be 
here today to share our views on human rights vetting and the 
critical role that it plays in advancing human rights and U.S. 
national security.
    I want to also express my profound gratitude to you, Mr. 
Chairman, for your leadership on this and so many important 
human rights issues. You came to Congress about the same time 
that Human Rights First was born, and I feel like we have been 
working together ever since. There is really nobody in 
Congress, and very few people outside of Congress, who can 
match your passion and persistence. You are a constant reminder 
to your colleagues and to all of us that respect for human 
rights is not only the right to do; it is the smart thing to 
do.
    And Human Rights First is actually an organization that is 
built on that idea. Our central mission is to foster American 
leadership on human rights, and human rights vetting 
requirements, the Leahy laws, are absolutely critical to that 
leadership.
    When Secretary Kerry rolled out the human rights country 
reports this year, he said, ``The places where we face some of 
the greatest national security challenges today are also places 
where governments deny basic human rights to their nation's 
peoples, and that is no coincidence.''
    As the U.S. expands its partnerships with foreign military 
and security forces to counter new threats, it is important to 
keep that in mind. Respect for human rights is neither a trump 
that beats other national interests, nor is it a soft concern 
that can be traded off or deferred without undermining those 
very interests.
    Respect for human rights, rather, is the cornerstone. It is 
a foundation on which to advance other national priorities.
    While the United States serves its national interest when 
it lives up to its ideals, the converse is also true. We have 
learned from years of experience that it is not just our 
reputation that is degraded when our partners engage in abusive 
and predatory practices; it is our security as well. 
Association with these abuses weakens U.S. moral authority, an 
increasingly, I think, undervalued resource these days, and 
alienates the civilian populations whose support is essential 
in the struggle against terrorism. And it is used by terrorists 
to validate grievances and to recruit others to their cause.
    The Leahy laws are sometimes viewed as an insurance policy 
to minimize the risk that American leaders are seen as 
collaborators with criminals. And that is an important thing, 
but human rights vetting is much more than human rights risk 
insurance. I would like to focus on two other strategic 
objectives of the Leahy laws that underscore both its 
importance and its practicality.
    First is the Leahy law's role in promoting accountability. 
In any country, real accountability in security services 
depends on the capacity and the willingness of civilian 
institutions to act. The Leahy laws encourage respect for human 
rights by providing an incentive for foreign governments to 
bring violators in their security forces to justice.
    The Leahy laws by themselves can't ensure that our security 
partners will hold abusive individuals and units accountable. 
For the law to be effective, the U.S. must embed it in a 
broader human rights strategy. Proper training helps foster a 
culture of accountability, which is one of the reasons that 
professionalizing partner forces is a key component of our 
national defense strategy. Properly trained security forces 
understand the negative ramifications of human rights abuses, 
and, thus, are less likely to commit them.
    So the vetting process required by the Leahy laws not only 
encourages the development of justice mechanisms, but when it 
is paired with robust training and assistance programs, it 
fosters professionalism with security forces that ultimately 
makes resort to those mechanisms less necessary.
    The other strategic value of the Leahy laws is their 
contribution to the conduct of U.S. counterterrorism 
operations. By encouraging foreign governments to institute 
counterterrorism policies premised on the rule of law and 
respect for human rights, and by demanding accountability for 
human rights violations, the U.S. creates the legitimacy needed 
for effective counterterrorism operations and mitigates the 
conditions that help give rise to extremism.
    Consider Colombia. The U.S. Embassy in Bogota has fully 
embraced the Leahy laws with two full-time staff positions 
dedicated to vetting 30,000 to 35,000 individuals annually. 
None of that was easy. It wasn't cheap, and Leahy vetting is 
not a panacea. But after a decade of effort and targeted aid 
that has spurred improvements, the Colombian Government 
continues to take action against many violators of human 
rights.
    Finally, the Leahy law is just not an obstacle to pursuing 
our security goals. I know there are some, including in the 
military, and some here in the Congress, who have expressed 
concerns that the Leahy laws create an obstacle to our security 
goals because they bar the U.S. from equipping security forces 
on the front lines of conflicts, such as in Nigeria.
    The logic behind this position is that in some conflicts 
there just are no good options, and that in service of a larger 
objective, against a bigger threat, the U.S. may need to 
tolerate units that have committed abuses.
    But those concerns should be assuaged just by the facts. It 
is really important not to conflate the need to work with 
governments and militaries that have questionable human rights 
records with what the Leahy law is intended to prevent. For our 
part at Human Rights First, we believe that when the U.S. 
military interacts with foreign militaries, it is generally a 
net plus in terms of effectiveness, professionalism, and 
governance by the rule of law.
    But no matter what lens you view it through, it is never in 
America's interest to arm or train or partner with individuals 
or units that are credibly believed to have committed torture, 
rape, or other such heinous crimes.
    Now, I have heard, and I understand from the State 
Department and others, that the Leahy laws have never really 
prevented the U.S. from engaging in an essential operation. 
There has always been a more reliable, rights-respecting 
alternative.
    As you heard from our colleague, Ms. Blanchard, the numbers 
really speak for themselves. If there is a problem getting 
training and assistance to the right people in Nigeria, I am 
not sure it is because of the Leahy laws. Clearly, we don't 
want the Leahy laws to end up disqualifying good people who 
share our goals and seek our support from getting it.
    Those individuals are not covered under Leahy, and, in 
fact, it is not uncommon for a new unit to be created for the 
sole purpose of excluding abusers and making sure we can help 
those people who share our values and our goals. And not only 
should we be cooperating with those military forces who share 
our goals, we also should be working with them to help them 
demand accountability for those accused of crimes.
    I suspect that the belief in some quarters that human 
rights vetting is a hindrance rather than a help in the 
country's battle against terrorism and other security threats 
might grow out of a failure to recognize its value. We all know 
that in the face of danger the big picture tends to get lost, 
and human rights vetting comes to seem a little bit like do-
goodism that can be disregarded in the interest of national 
security.
    But we should reject the temptation to cut moral and legal 
corners. The Leahy laws really derive from the bipartisan 
commitment to our country's ideals. And those ideals are a 
national security asset. And when we ally ourselves with those 
who undermine human rights, we are endangering ourselves.
    Now, we have in the written statement several 
recommendations for improving implementation of the human 
rights vetting process, and maybe we can address those in the 
questions and answers.
    But I thank you for your leadership, again, in holding this 
hearing, and for digging in as usual on the details of what can 
make human rights real.
    [The prepared statement of Ms. Massimino follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ms. Massimino, thank you very much for your 
testimony, for your leadership for decades. And we will get to 
your recommendations as soon as we hear from our next witness, 
Ms. Margon.

   STATEMENT OF MS. SARAH MARGON, WASHINGTON DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Margon. Thank you. Mr. Chairman, thank you for inviting 
me to testify today. I am really pleased this subcommittee is 
looking at the details of human rights vetting and its 
application in Nigeria and beyond.
    It is a timely hearing, given the impending U.S. 
redeployment from Afghanistan and the inevitable shift in 
resources and priorities that will occur. In fact, this shift 
has already begun with President Obama's recent creation of the 
Counterterrorism Partnership Fund and other correlated efforts 
to strengthen the capabilities of foreign military partners.
    It is a renewed and expanded approach to security 
assistance that calls for reinvigorated attention to the Leahy 
law as a critical tool to finding the right balance between 
incentivizing institutional reform and addressing ongoing and 
systemic abuses that undermine larger U.S. security goals.
    As you have noted, Mr. Chairman, the Leahy laws are an 
important means to ensure that the U.S. is not complicit in 
grave human rights abuses abroad, and that it upholds its 
international legal obligations. But it also makes sense within 
the larger foreign policy context, since militaries that commit 
abuses can also exacerbate longstanding grievances, escalate 
atrocities, foment political instability, and provide abusive 
armed opposition groups and terrorist organizations with a very 
powerful recruiting tool.
    As examples, I would like to talk a little bit about our 
research in Nigeria, and then move off the continent for a 
second to talk about Iraq, given that it has returned to media 
pretty heavily.
    Since long before the Chibok abductions, and the Bring Back 
Our Girls campaign captured the world's attention, Human Rights 
Watch has been reporting on the crisis in northern Nigeria and 
the serious abuses the security forces have perpetrated in 
responding to it. In 2009, we denounced the government's 
killing, while in custody, of Boko Haram leader Mohammed Yusuf 
and many others, acts which are widely believed to have spurned 
further violence by the group.
    In October 2012, we released a report that looked not only 
at Boko Haram's atrocities, but also at the impact of Nigeria's 
heavy-handed security response. We found that in an attempt to 
halt increasing violent attacks between 2010 and 2012, 
Nigeria's security forces killed hundreds of Boko Haram 
suspects, along with members of local communities who were 
apparently attacked at random. Our research made clear that the 
members of the security force used excessive force, were 
physically abusive, detained suspects secretly, stole money, 
and burned homes.
    In May 2013, Human Rights Watch issued another report 
examining massive destruction in the northern town of Baga. We 
used satellite imagery and witness evidence to confirm that 
while Boko Haram did attack a military patrol, kill a soldier, 
and wound five others, the government's response was directed 
at the local community, as government forces burned homes and 
killed local residents.
    Our satellite images actually indicated high levels of 
building destruction, but because we were not able to visit the 
north we weren't able to confirm death figures from witnesses 
of almost 200 people.
    Security force abuse in Nigeria is not limited to the Boko 
Haram crisis, as I am sure you know. It is deeply systemic. 
Over the years, we have documented many cases of abuse and 
apparent indiscriminate or excessive use of force outside of 
insurgency-related situations, from the oil-producing Niger 
Delta region, to arbitrary killings in response to 
intercommunal violence in Nigeria's middle belt, to political 
violence that often accompanies elections at all levels of 
government, to even small events such as one that occurred 
about a 1\1/2\ weeks ago in the city of Lagos, where it 
appeared soldiers went on a bus-burning rampage, randomly 
beating and harassing city residents after a bus ran over and 
killed one of their fellow fighters earlier that morning.
    This abusive conduct completely undermines the security 
force's effectiveness and creates strong resentment within the 
communities they are ostensibly there to protect. In the case 
of Boko Haram, many Nigerians have expressed reluctance to 
share any information that might help stop the group, because 
they are afraid it will be used against them.
    Worse still, the Nigerian Government has largely failed to 
undertake any kind of credible investigation in the ongoing and 
pervasive security force abuses that have repeatedly been 
brought to their attention. More than 10 years on, the 
government has still not held any members of the security 
forces accountable for a 2001 massacre of more than 200 people 
in Benue State.
    If we turn to Iraq very briefly, as another example, where 
Prime Minister al-Maliki's heavy-handed approach to security 
has exacerbated security tensions, perpetuated impunity, and 
undermined the rule of law. We see that in January 2013, the 
Prime Minister promised to reform the criminal justice system, 
but a year later had done nothing and the brutal tactics of his 
security forces remain essentially the same.
    In late May, just before the initial advance of ISIS, Human 
Rights Watch documented how Iraqi security forces were dropping 
barrel bombs on populated areas and attacking hospitals in 
Fallujah as the government intensified its campaign against a 
broadly defined group of insurgents.
    This is not to say that Iraq hasn't been grappling with 
some very serious security threats. We know this. But the 
government's excessive use of force in law enforcement 
situations and violations of the laws of war has hindered 
rather than helped the country's counterterrorism efforts. He 
has terrified hundreds of civilians, killed thousands more, and 
the government has alienated affected populations, many of 
which could have been potential allies in the name of 
``combatting terrorism.''
    A cautious approach to security assistance, combined with 
robust Leahy vetting, is essential given the body of objective 
evidence in both cases implicating security forces in gross 
human rights abuses. The Washington Post editorial board noted 
earlier this week, if U.S.-backed forces commit human rights 
abuses, the damage is twofold. The fight against insurgents is 
compromised, and so is support for the alliance with the United 
States.
    We also have a number of recommendations, which I will 
shorten, but very briefly the first is that Human Rights Watch 
would recommend support for the larger $5 million in the Senate 
appropriation for the Leahy vetting to ensure that Embassies 
have the right staff.
    The second is for the administration, and Congress to press 
the administration, to move much more quickly on developing 
guidance for remediation and accountability.
    And, finally, just to pick up on this last point that you 
mentioned earlier, the administration needs to do a much better 
job of publicly embracing the principles of the Leahy law at 
extremely senior levels and making clear both the implication 
and the consequences for all partner nations.
    Thank you. I am happy to take your questions.
    [The prepared statement of Ms. Margon follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much for your testimony, and for 
your specific recommendations, which will be very helpful to 
the subcommittee.
    All of your comments and testimony I think will be of 
tremendous nature. We are in an inflection point. We are at a 
crossroads, I think, especially with the President's proposal 
and the language that you, Ms. Blanchard, pointed out in a June 
26 submission to Congress with regards--that would seemingly 
bypass the Leahy amendment, the ``notwithstanding'' language, 
any limitation in the provision of law that would otherwise 
restrict the amount or recipients of such support or 
assistance, contingent on notification to Congress that it is 
in the national security interest to do so, as part of the 
Counterterrorism Partnership Fund. And I thank you for 
amplifying that in your testimony.
    So this does come I think at an important point in this 
debate. I would like to ask one general question about Nigeria, 
and, Colonel Aubrey, you might want to be first to answer it. 
We tried as a committee for approximately 2 years to get the 
administration to designate Boko Haram a foreign terrorist 
organization.
    Matter of fact, Greg Simpkins and I traveled to Jos and to 
Abuja last September, and the primary reason for going was to 
try to figure out why that FTO designation was not forthcoming, 
which, again, just like Leahy is not a panacea, nor is FTO, 
there is no panaceas, but there are tools in the toolbox that 
could help choke and stop the flow of funds, or at least figure 
out where those funds are coming from. And sooner is always 
better than later, rather than waiting to a Stage 4 cancer, 
which Boko Haram has become.
    And so my question is, when we get to training properly 
vetted, Mr. Rickard talked about 530,000 as the number, and you 
have a number of different periods, Ms. Blanchard, in your 
testimony--but large numbers of troops, service members, have 
been trained pursuant to Leahy. Only a small percentage are 
excluded. It does take some time, of course.
    But the question would be about the small number, the 
infinitesimal small number, of Nigerians who indeed have been 
trained, especially since Mr. Jackson had testified on the 
Senate side that roughly half of the Nigerian forces would be 
eligible for military training. And that is especially 
important in counterinsurgency training.
    So your thoughts on, you know, 1,200, 1,300, I don't know 
what the number is for Fiscal Year 2013. But it is not much 
when one battalion is trained and, you know, the need for five 
to ten with that very special skill-set, human rights-oriented. 
Your thoughts on that. It seems like it is too small.
    Colonel Aubrey. I am not sure that numbers itself really is 
relevant on that. I have always felt that the Nigerian Army had 
sufficient strength to protect its borders. What you are 
talking about is national will, Chairman, is do they have the 
wherewithal and do they have the trust of their military to 
effectively train and arm and deploy. And I say that, you know, 
very cognizant about their military history.
    While I was present in Nigeria, we were very confident that 
the amount of ammunition that they would issue out their 
soldiers was usually zero, that we had people going through 
training in Jaji, the Infantry Training Center, preparing to 
deploy to Darfur that had been in their unit for 5 years and 
had never fired their weapon once.
    It is incumbent on the National Command Authority to trust 
its elements of defense and security. Unfortunately, the 
history in Nigeria does not lend the civil administration great 
confidence of that. And that is why my--my current military 
peers that had served in the 1990s probably will curse me for 
my statement about expanded IMET.
    I know that when I had to implement that I was not happy 
about having to do some of the Defense Sector Reform 
initiatives prior to doing regular military training, because 
that is what, you know, the targeted nation wanted. But there 
is something to be said about teaching a military's proper role 
in civil society, both on the civilian side where the civilians 
understand how to properly command and control the military, 
but having the military understand the divisions.
    In Nigeria, the incidences that have been talked about, 
that is their own people that they are going into, that it is 
not enemy combatants on a foreign shore. So understanding that 
civil-military relationship, taking some of the lessons-learned 
that we have learned from 13 years of combat in Afghanistan and 
Iraq, and how atrocities make the jobs more difficult. It makes 
achievement of the mission goals much more hard.
    You know, I don't have a solution. Just an observation 
that, you know, the problem in Nigeria is trust.
    Mr. Smith. Yes.
    Ms. Blanchard. I think Colonel Aubrey has touched on a 
number of the issues. I think there is certainly an issue of 
political will, and also of follow-through on the part of the 
Nigerians.
    If you look at the two areas of security cooperation where 
we have had the most success, it has been in peacekeeping 
training and in maritime security and counternarcotics. The 
Nigerians have recently been making the decision to scale back 
their contributions to peacekeeping, and they are dropping 
further down the list. And they were always one of the top five 
contributors. They are no longer. So they are making some 
different decisions about how they allocate their military 
resources.
    In terms of special forces capabilities, they haven't 
prioritized that. We started, I believe, in 2010 to try to work 
with a special counterterrorism unit. They didn't keep the unit 
together. We are facing that challenge now where they are still 
debating whether a unit that has been cleared and trained to do 
counterterrorism missions will actually have that mission.
    So there have been some challenges I think in follow-
through, particularly in engagement with us on things that we 
have offered and things that they have taken us up on. So I 
will leave that.
    Mr. Smith. Yes.
    Ms. Margon. Just wanted to pick up on those points. I think 
you raised the right question. And in the grand scheme, the 
small number of units that have been trained are not enough, 
but it is important to remember a couple of things.
    First is in the specific case of Boko Haram, a military 
solution is not going to fix the problem. And so while it may 
be that more clean units need to be engaged, it is not solely a 
military problem. It needs to be engaged in a much wider and 
more comprehensive approach, which requires much greater 
political will from the government in Abuja. That is the first 
point.
    The second point----
    Mr. Smith. On that point, if I could----
    Ms. Margon. Sure.
    Mr. Smith [continuing]. Is it possible that Boko Haram has 
gotten to the point where--I mean, we are looking at ISIS every 
day and seeing the gains they are making in Iraq, which seems 
to have caught many people flat-footed, both in Baghdad as well 
as in Washington and other capitals.
    They have built up a critical mass. They weren't supposed 
to be able to project power on Abuja, and a month before we got 
there they blew up a bus station. It is almost as if they are 
extending with impunity their ability to kill and maim, and of 
course the Chibok schoolgirls' abduction, followed by other 
abductions, and slaughter of young men as well, and boys, in 
school. It is as if the terror reign has gone to an 
unprecedented level, and they have gotten stronger, not weaker.
    So just a thought, but your thoughts on that.
    Ms. Margon. Yes. I wouldn't disagree. I think we have 
reached a much more violent and expanded version of Boko Haram 
right now. I do think in part that has to do with the heavy-
handed approach from the Nigerian security forces in their 
response, not exclusively,but I do think over the short term 
what the Nigerians need to be looking at is putting together 
units and putting political will behind that to deal with the 
immediate military and protection concerns.
    But then there are also needs to be a much larger response 
that looks at the historical marginalization and 
disenfranchisement and poverty of the north that has enabled 
Boko Haram to capitalize on and move forward with that type of 
strategy.
    Mr. Smith. Yes. Ms. Massimino?
    Ms. Massimino. I would just reinforce what Colonel Aubrey 
said, because I thought really you crystallized the problem 
that is often faced with human rights vetting and with so many 
other situations where we are faced with kind of a short-term/
long-term--you know, what appears to be a conflict.
    And I really welcomed your comment that, you know, this is 
not--doesn't feel as urgent perhaps to establish these 
mechanisms for accountability, buildup, you know, foreign 
military's JAG corps, educate them about the proper 
relationships with their civilian masters, and all of that. But 
if we don't do that, everything else is harder. And so holding 
to the discipline of that is really important, and I think that 
is exactly what we are facing with implementation of the Leahy 
laws.
    Mr. Smith. Ms. Margon, you have mentioned in your 
testimony, in your recommendations section, that Congress 
should press the administration to develop clear policy 
guidance on how the diplomats and military officials can 
support foreign governments, promote accountability.
    And you also point out, ``Finally, the administration 
should publicly embrace the principles of the Leahy law.'' 
Especially with regards to Nigeria, has that happened at the 
highest levels of our Government?
    Ms. Margon. I would say that in the aftermath of the Bring 
Back Our Girls campaign, there has been a very clear 
understanding at senior levels from this Government, from this 
administration, about the need to be cautious in engaging with 
the Nigerian military. The administration is well aware of the 
problems.
    Has it been embraced prior to that? Not in the way that it 
should have been. It doesn't mean that any laws are being 
violated. Of course not. But it does mean that engagement at 
the Ambassador level and at the Embassy needs to be much more 
robust when U.S. Government officials, particularly military 
officials, are going to Nigeria, human rights vetting and 
security cooperation needs to be a top talking point, which, to 
the best of my knowledge, it has not been until very recently.
    Mr. Smith. Has it been enough of a priority--and, Colonel, 
you might want to speak to this as well--within the 
administration to say Boko Haram is a lethal growing cancer on 
the body politic of Nigeria? Just like al-Shabaab did such 
unbelievable damage, still does, in Somalia and now is 
projecting that damage to Nigeria, to Kenya, and elsewhere.
    My feeling is, and you don't have to share it, is that 
there has been an underappreciation of the threat, which means 
we could have been accelerating the number. If half of the 
Nigerian military is eligible to be trained, by implication 
that half are not, pursuant to Leahy, why aren't we training 
more, and why is there not a hurry-up offense to get as many 
well-vetted but specially trained troops to protect the 
Nigerian people, the largest country in sub-Saharan Africa?
    Ms. Blanchard. If I could speak to that.
    Mr. Smith. Please do.
    Ms. Blanchard. The administration I think has taken very 
seriously the threat posed by Boko Haram for quite a long time. 
I think one of the challenges--and former Assistant Secretary 
Carson made it clear that one of the reasons that the 
deliberations on whether or not to designate Boko Haram a 
foreign terrorist organization took a while, was that there was 
concern raised by a number of NGOs and African studies 
academics here in the United States and elsewhere about 
actually labeling the group a foreign terrorist organization.
    Now, the State Department made several statements labeling 
them a terrorist organization, but on the actual FTO 
designation. The concern was that that might be seen to give a 
green light to the security force abuses that they were seeing 
in the northeast by the Joint Task Force. Those reports went 
back, obviously, to what Sarah talked about back to 2009.
    But particularly as the Joint Task Force stood up, from 
2011 onward, we were seeing a lot of very, very serious 
reporting coming out, and there was the concern that the 
Nigerian Government might perceive that designation to give a 
green light to those operations.
    And on the flip side, there was not clear evidence, from 
what I understand from talking to administration officials, 
that the implications of the FTO designation, i.e. the ability 
to freeze funds in the United States and stop travel of Boko 
Haram individuals in the United States, would have much of an 
effect. There wasn't evidence to suggest that there was a lot 
of----
    Mr. Smith. Well, I get your point, but there is a larger 
issue whether or not sufficient personnel are deployed at 
Treasury, for example, even now, that FTO has been so 
designated to really make a difference and to work this 24/7 to 
try to find out where the AK-47s, the IEDs, and everything else 
is coming from. And I have asked those questions, and I have 
not gotten the kinds of answers that would make one sleep well 
at night.
    We are not working it, in my opinion, the way we could or 
should. That is even FTO. So I just throw that out. Anybody 
else want to comment on the issue?
    Colonel Aubrey. Mr. Chairman, the only thing I would add is 
that the extremist issue in the trans-Sahel area is not a new 
one, and it isn't a new one to the Department of State, to 
Congress, or to the Department of Defense.
    I go back to where I sit on national will. Burkina Faso for 
years denied that there were issues in the north, and it was 
only after many years and many discussions that they actually 
acknowledged. The host nation has to request the assistance, 
you know. And until they do, until they recognize the problem, 
it is hard to help a partner nation develop an effective 
strategy.
    Mr. Smith. Let me just ask the question with regards to 
units versus individuals and just get each of, if you would, 
your thoughts on that. You make the point, Colonel, that 
sometimes the taint is forever. And I was talking to Elisa 
Massimino before we reconvened, and it just struck me that 
there are a number of units in the U.S. military, including the 
unit that Lieutenant William Calley was a part of, the Abu 
Ghraib deployment, where the bad apples were prosecuted. Not 
enough, obviously, with Lieutenant Calley; he is the only one 
who was convicted as a result of the My Lai massacre in 
Vietnam.
    And it just seems to me that maybe reconstituting or 
encouraging host governments like--or friendly governments like 
Nigeria to come up with a brand-new unit, as opposed to an old 
unit that has a terrible reputation.
    And as you point out, Ms. Blanchard, you know, there is a 
tension there, and you do quote Admiral William McRaven in 
Congressional testimony that while he supported the vetting 
process, it has restricted us to the number of countries and 
our ability to train units that we think need to be trained. 
Individuals--that is an absolute, that individuals should be 
vetted to the greatest extent possible.
    But it does become at least problematic about the unit 
side. Your thoughts on that, because it seems to me that it is 
worth a discussion, and I am sure there will be a little 
difference of opinion as a panel.
    Colonel Aubrey. And I will bring myself back to my--what 
had been my profession for most of my adult life, is we are 
quite proud of those little pieces of cloth, the streamers that 
hang from our regimental colors, and so forth. Asking someone 
to rebadge doesn't usually sit very well with a soldier. They 
are quite proud of their unit lineage.
    If you look at the battle streamers on the Army colors, 
they date back to Valley Forge. So approaching any other 
country's units to discuss, you know, reconstitution doesn't 
necessarily sit well. Whether or not we agree with their 
lineage, a lot of times they are quite proud of their lineage. 
That on these units they--you know, because of their colonial 
past, they talk about the colonial wars they fought, or what 
they did in the First World War, the Second World War, and are 
quite proud, and rightfully so, of their lineage.
    I think what is even more important is that for the Leahy 
vetters, whether it is in the Embassy or with INVEST, is that 
they understand the order of battle, and understand what the 
units really mean. What is the difference between a section or 
a platoon, a division, a battalion? Who ranks what, the 
sergeant or the general? And that would be effectively--to 
understand what the unit rotation is, what is the turn of 
enlistment to the unit?
    Liberia, which had a turn of enlistment, they just--the 
first batch of--they have just brought in their second batch of 
recruits since the LAF was reconstituted. So if you know that 
they are going to do a rotation in 6 years, that if a unit had 
done something 10 years ago, the chances of anybody being in 
that unit, having committed that atrocity, is gone.
    That would be much more effective than saying take the 131 
that committed atrocities in Maiduguri 3 years ago, and we are 
going to rebatch it as the 151, because we won't know.
    Mr. Smith. Thank you.
    Ms. Massimino?
    Ms. Massimino. Yes. So the examples that you gave of U.S. 
units, where there were abuses, you know, those are examples 
where there was investigation, prosecution, and I think in 
order to get the full value of the Leahy laws and human rights 
vetting, as I said in my testimony, you don't want that viewed 
in sort of a narrow way where you just kind of rearrange the 
deck chairs and see if you can assemble.
    I mean, that is one way, and it is perfectly permissible 
under the law to create new units and all that. But, really, 
what we want, what we all want, fundamentally, the Leahy law is 
to prompt better human rights performance, stronger commitment 
on the part of the militaries and the governments to 
accountability and the rule of law. And you don't get that if 
you are, you know, just rearranging the deck chairs.
    But, you know, as to these units that, you know, have this 
sense of identity and cohesion and all of that, there is 
nothing inherently wrong with that. But we all know that there 
are units that are, you know, proud and have cohesion around 
the wrong things. They are notorious for being human rights 
violators.
    And I think there you really have to wonder whether long 
term the interests are going to be served if you are balancing 
those interests with keeping that band of brothers together 
when what has drawn them together and the identity of the unit 
is not something you want to perpetuate.
    Mr. Smith. Yes.
    Ms. Margon. Just quickly, I think if you are talking about 
rogue elements or abusive units within an otherwise law abiding 
military in the country, then the units should be disbanded and 
prosecuted, the individuals should be prosecuted. This is in 
fact what we have recommended in specific cases in Bangladesh, 
Indonesia, and Afghanistan. But if it goes beyond the rogue 
elements or the abusive units and is a more endemic problem 
within the security forces, then nothing else is going to 
suffice, as Elisa said, when it--as opposed to accountability 
or prosecution.
    And there the U.S. can plan a really important role. The 
State Department, USAID, Defense Department, and Justice all 
have really deep and varied experience in helping set up 
justice mechanisms, technical expertise. Prosecution is a 
critical component that helps with the institutional reform, so 
it really depends on what you are looking at when it comes to 
the unit.
    Mr. Smith. Let me ask--oh, yes. Ms. Blanchard?
    Ms. Blanchard. Just a final point. Three things. I think, 
one, creating new units demonstrates political will, and we 
have seen a number of important security partners on the 
continent that do that, because there are issues with tainted 
units, and we have been able to move forward, particularly 
contributors to the mission in Somalia.
    A second point is that the vetting process should really 
ensure that they try to identify the smallest unit possible 
when they have evidence of an abuse. We have seen cases in 
important security partners, again, in East Africa, where 
larger units have been tainted because the NGO reporting on the 
information wasn't able to get it down. And as a result, we 
have had important counterterrorism training postponed with 
very key battalions.
    And then, the third point is the fact that there are 
differences in the laws, and perhaps there are differences in 
the laws for a reason. The State Department/FAA Leahy provision 
requires that these individuals be taken to justice. The 
language in the DoD law is slightly different, and, as a 
result, you can have the individual taken out and not 
necessarily go through a court of law system to get the unit 
back to being eligible for training.
    Mr. Smith. I have a lot of other questions. I will ask them 
all and ask of you, whichever ones you would want to respond 
to.
    First, starting with--I went on the Web site for the 
Nigerian Army last night, and one of the feature parts of that 
Web site talks about how the International Committee for the 
Red Cross is collaborating with the NA, the Nigerian Army, and 
it talks about a training the trainers program, law of armed 
conflict programs. Obviously, I think they are primarily 
focused on peacekeeping, but I guess they might be talking 
about other good human rights-oriented behavior.
    What is your thought on that kind of collaboration? Because 
obviously it is front and center, and hopefully, you know, the 
ICRC is conveying some very important principles and best 
practices with regards to human rights.
    Secondly, some of you may know that I am the prime author 
of the Trafficking Victims Protection Act of 2000. When we did 
the reauthorization in 2003, we added a provision that 
militaries would be part of the minimum standards, and I still 
am concerned that when we look at a country's performance vis-
a-vis the minimum standards prescribed in the law, that 
militaries are not sufficiently taken into consideration as to 
the tier ranking, Tier 1, Tier 2, Tier 3, or Tier 2 Watch List.
    And I am wondering, with regards to Leahy, how focused are 
we on trafficking with regards to a military? I have tried 
unsuccessfully for well over a decade to establish an Assistant 
Secretary within DoD's chain of command that would be focused 
at an office exclusively on trafficking, because I am great 
believer because I talk to generals and armed forces leaders 
throughout the world every time I travel it seems. I always 
bring up trafficking, and when a politician or a lawmaker 
brings it up, it certainly does not have the gravitas that it 
would have if a colonel or somebody with a few stars was 
talking military to military, training the trainer, so to 
speak, language.
    I know that DoD does a wonderful job in many cases, but I 
am wondering if in the vetting process trafficking, 
particularly sex trafficking, is included. And we know of the 
things that Shekau said was that he was going to sell the women 
from the Chibok school, and the young girls. No one knows if 
that has happened, but obviously trafficking is everywhere, and 
it is a horrific crime.
    Thirdly would be, if somebody is unfairly excluded, say a 
commander has a platoon or a squad, a number of people that, 
really, are up and comers, they really are wonderful soldiers, 
and somehow they get excluded in the vetting process, or not 
enough information is known, what does happen with those 
people? Do they get a second chance?
    Is there an appeal process to--because obviously upward 
mobility even, but also capability in terms of fighting a group 
like Boko Haram is enhanced if your best soldiers are included, 
and they are also human rights-vetted. So the appeals process 
would be another question.
    Also, delays. You mentioned, Colonel, that when you were a 
commander, U.S. Army Security Systems Training Management 
Organization (SATMO), ``I was faced with delays in deploying 
trainers due to incomplete vetting.'' If you could maybe--and 
others, if you would like, but if you could expand upon, what 
kind of delays are we talking about? Is it a week, a month? Is 
it forever for some? How does that work in terms of your 
ability to match up a trainer with a group of soldiers that are 
in need of that training?
    And the INVEST program, Ms. Margon, your point about the $5 
million being far superior than the just under $3 million for 
the vetting process, and 13 people I think is the number that 
are at DRL. How important is that? Is that really a make or 
break issue? All of you might want to speak to that, but it 
seems to me that if you don't have the personnel deployed, the 
job doesn't get done.
    I know in our Embassy in Nigeria we do have--and I actually 
watched a vetting process happen with the Google search and 
INVEST, and it was one they had already done, but it was just 
to show me how, because I had never seen it actually done, at 
least at that stage.
    Is there room for improvement there? Is the INVEST program 
database accurate? Is it something that needs improvement, or 
is it just a work in progress, always going from good to 
getting better?
    So there are a couple of questions. And, again, you might 
want to touch on those policy tensions that, Ms. Blanchard, you 
have talked about, between the military and state and human 
rights community, which can be benign tensions. Everyone is 
looking out for--or hopefully striving for the same ultimate 
goal here, but we need to learn from each other.
    But if you could perhaps address some of those questions.
    Ms. Blanchard. I will start with the first issue you 
raised, the Nigerian Army engaging with the ICRC, and I think 
that is a great development if it is happening. I think one of 
the trends that we see, not just in Nigeria but in countries 
like Kenya and elsewhere where you have security force abuses, 
they often can be linked to breakdowns in the criminal justice 
system. You see frustration from local police, from the 
military, that individuals, you know, be they Boko Haram or 
otherwise, are not going through the system.
    And, as a result, particularly in Nigeria, we have seen 
massive detentions. These are not criminal justice detentions, 
but you are seeing thousands of people held in military 
facilities, particularly in the northeast, in Borno, in 
horrific conditions. So if ICRC can engage with the Nigerian 
military on how to improve those detention facilities, that is 
fantastic. A much bigger step would be to address the criminal 
justice system and its ability in countries like Nigeria and in 
East Africa to address processing of terrorism cases.
    On the issue of political tensions, this is a very 
difficult one, and there are a number of different tensions. It 
is not just between the military and the State Department. 
Often there are different parts of the military that see this 
differently, I think. You might find that the regional commands 
view things differently sometimes than special operations 
commanders who are dealing with these countries on a more 
episodic basis.
    But there are also political tensions between posts, the 
Embassy, be it both State Department and DoD officials and FBI 
officials, and others who have to manage those day-to-day 
operations, managing the relationship with the host country, 
and people back here in Washington, DC, who have to establish 
and implement the policies, including the Leahy laws. So there 
are tensions in terms of what your primary day job is, I guess.
    And in terms of you mentioned Admiral McRaven's testimony 
last year, as I noted in my written testimony, he followed that 
up and said that there had been subsequently some very 
constructive engagement between DoD and the State Department.
    And I think that as DoD has started to look more deeply at 
partner capacity-building, they are really having I think some 
constructive dialogues with the State Department on how to 
improve the process, improve the vetting process, improve the 
discussion with the host governments on how to hold forces 
accountable, how to provide this human rights training. So I 
think that that is moving in a positive direction.
    Colonel Aubrey. Thank you, Mr. Chairman. I agree with 
Lauren about the ICRC. The only thing I would say, if--having 
dealt with the Nigerian Army, if they are putting it on their 
Web site, I assume it has the blessings from the highest level, 
and that means it is probably being checked.
    As we all know, you know, soldiers do what they know that 
their officers are checking on. If they are taking it 
seriously, it is a positive movement forward.
    Trafficking, I understand what you are saying. I know that 
any military member going into the SOUTHCOM area, one of the 
things that is required for entry is to complete--it is listed 
under force protection, but it really is training on human 
trafficking.
    It is, once again, things that get checked, people do. If 
they are sitting down there--if that is a standard that becomes 
across the board, you will see a greater emphasis from the 
military. Obviously, in the SOUTHCOM area of responsibility, 
human trafficking had been a concern for the SOUTHCOM 
commander, and he acted accordingly.
    INVEST--I understand the State Department has 13 people 
doing it. Mr. Rickard's number was 530,000 units checked. With 
one boss and 12 workers, that is a horrendous workload. I defer 
to Ms. Margon's bit about $5 million is much better than the $2 
million. Obviously, it is a huge workload when you look at U.S. 
global engagement and having to validate a significant number 
of military units globally.
    And the last comment on vetting, for that particular 
mission, we were able to reschedule. U.S. Army Africa has no 
dedicated forces to it. It is a headquarters. The Army's 
solution for that is to implement through--on the global 
manning process is to earmark what they call the regionally 
aligned force. And every year an Army brigade or a brigade 
equivalent is designated to the combatant commander to use for 
engagement opportunities.
    There are finite periods. You know, that brigade commander 
or that unit commander has requirements that he or she has to 
meet. If they cannot deploy because the unit to be trained has 
not been vetted, it--you know, it will depend on what else the 
United States Army has earmarked for that unit the next quarter 
or the next fiscal year.
    It might not ever recur. It could be an opportunity lost. 
It is very much dependent on the particular training being 
desired and when it is being scheduled.
    Mr. Smith. Colonel, before going to Ms. Massimino, did you 
find that the names that were tendered to you were more likely 
to be pre-cleared and to be of soldiers who are likely to make 
it, so in a way it is already having a laudatory effect on the 
Nigerian Army? And does it then begin to create a culture where 
human rights are the way forward for a soldier to really make 
it in the military, particularly if he is career-oriented?
    Colonel Aubrey. The quality of U.S. training is superb. 
Most foreign nations--much broader than just Nigeria--select 
their best and brightest to come to the United States to go to 
our schools. So it is definitely a career enhancing move to be 
selected to come to the United States under the IMET program.
    For training in theater, our soldiers are good. The quality 
of training that we give is good. Their soldiers benefit. So, 
yes, it would be a career-enhancing move to it.
    As far as pre-clear on vetting, the Nigerians, when I was 
there, they understood what our requirements were. They knew 
far enough in advance because we were talking battalion level 
training, that we would check the names of every member of that 
battalion, and they had enough time to do it. And there was the 
political will at that time--and it was already addressed as--
you know, then, peace support operations was very important to 
Abuja.
    ASO Iraq did what was necessary and had the defense 
establishment do what was necessary to meet those terms. It is 
still, what is their political will to do so?
    Mr. Smith. Thank you.
    Ms. Massimino?
    Ms. Massimino. Thank you. I don't have a lot to add to 
that. I want to also say that I don't know the content of the 
ICRC training for the Nigerian military, but I can't imagine 
that that is not a huge net plus, to have that happening. So it 
is good to hear that.
    On trafficking, I am really glad you brought that up. I 
know that Leahy vetting sometimes includes things beyond what 
the law requires, but I would be also curious to know, and I 
don't know, whether engagement in trafficking by militaries is 
part of that.
    I don't think I have had a chance to talk to you yet about 
the fact that Human Rights First is launching a major campaign 
on anti-trafficking efforts. And at a recent meeting with 
General Kelly, SOUTHCOM, at the human rights roundtable, we had 
a specific discussion about the concerns that criminal networks 
engaging in human trafficking are diversified and also are, you 
know, supporting terrorism, and it is becoming one large 
weapons, people, drugs, and terrorism network, profit network.
    And so you could certainly make an argument that it ought 
to be, and I think we are going to be working closely with the 
U.S. military and others to try to ramp up efforts to identify 
those in foreign militaries that are engaging in trafficking.
    And then, on the appeals process, Ms. Blanchard is far more 
knowledgeable about that than I am, but I did want to flag 
this, because it goes back to the importance of the duty to 
inform. Leahy really, again, to get the full benefit, it is not 
really going to work unless we are telling the people who are 
being excluded why they are being excluded, and then start 
working with them.
    And I think there is sometimes a reluctance to do that, to 
make the relationship awkward, or we don't want to, or the 
governments aren't going to like it, and that has bled into 
sometimes kind of putting people in a strategic limbo where 
there is not a decision made. They don't want to make a 
negative decision, so they just put them in a closet and it 
never gets made. And that is not helpful either.
    So those are things that it would be good to find some ways 
to tackle.
    Ms. Margon. Just very quickly, you know, I think on the $5 
million, my response will speak both to the $5 million in the 
Senate appropriations bill and the tensions. What is very 
important to remember about Leahy is that there is both an 
Embassy side of this, so the U.S. Embassies are taking care of 
this, and there is the Washington side. That can breed 
tensions, not just along civ-mil lines, but also from posts 
back to Washington.
    The $5 million, if you think about it, there is at least 
$15 billion of security assistance globally, the centerpiece of 
the President's counterterrorism plans as we redeploy from 
Afghanistan, is going to be this Counterterrorism Partnership 
Fund. Five million dollars to do the vetting is, assuming it is 
legislated correctly with Leahy requirements, we would hope, is 
that that is what needs to happen. It is a basic need to 
continue to expand the vetting pool that way.
    So it would go to basic things like supporting staff and 
computers in Washington, but also enabling the Embassies, as I 
understand, to be better trained. It is desperately needed, and 
in the grand scheme it is not a lot of money to help move the 
process forward and make it easier, so when defense attaches at 
post have to do this vetting, it doesn't result in delays, it 
doesn't result in a misunderstanding, and names dropped off of 
people who should be.
    The final thing that I would just mention is on the 
trafficking. As far as I understand, Leahy doesn't cover 
trafficking, since we are looking at just the gross human 
rights violations. But what I think it is important to note is 
that Leahy often works hand in glove with other conditions that 
have been put on through various bills, appropriations, and 
otherwise.
    I think what we have seen in Indonesia and the Philippines 
is that Leahy has been the minimal basis along with some other 
conditions that have helped move those countries in the right 
direction. And so in considering next steps on trafficking, it 
may not mean Leahy has to change per se, but that there are 
additional alternative expansions that can be made and other 
bills that can work in a correlated way.
    Mr. Smith. Thank you. And just to add for your 
consideration, but I do think section 502(b) and the language 
clearly would cover trafficking. Look at the disappearance of 
persons, degrading treatment, cruel and inhuman, I mean, it is 
ready-made for that.
    We will ask the administration, if they haven't, if they 
will include it, because it needs to be I think, and get the 
TIP office to weigh in as well, hopefully they will agree.
    I do have one final question, and maybe--Ms. Blanchard, you 
answered it, but the Counterterrorism Partnership Fund, the $5 
billion proposal which had legislative language--and I read the 
language and it right from your testimony, which came up on 
June 26, so just a few weeks ago--seems to not include the 
Leahy amendment.
    I mean, with notwithstanding language red flags go up as 
soon as that language is anywhere, and it says notwithstanding 
any limitation in the provision of law that would otherwise 
restrict the amount or recipients of such support, does this 
bypass Leahy? Or am I misreading the language?
    Ms. Blanchard. It could potentially, if enacted in that 
way. And the difficulty with these notwithstanding provisions, 
we don't always know how they are implemented. So it is not 
always clear when the administration makes a policy decision to 
use that notwithstanding authority or not.
    But, yes, potentially that could, if that makes it into 
law, leave ways to--I don't want to use the term ``go around 
Leahy,'' but potentially.
    If I could make one comment, CRS doesn't make policy 
recommendations, but on the issues of resources for vetting the 
new DoD definition of ``assistance,'' again, significantly 
broadens the amount of security assistance-type activities that 
the State Department will now have to be vetting for. And DoD 
is still, to my understanding, working on the definition of 
what all that includes, but it is significantly larger than the 
training that they were vetting for previously.
    And if you then add on top of this the potential $5 billion 
new counterterrorism capacity-building program, that is a 
massive potential amount of vetting that needs to be done.
    Ms. Massimino. Yes. I just wanted to underscore that that 
is also in our recommendations about the $4 billion for the 
Counterterrorism Partnership Fund. And it is a huge red flag, 
and I think it is hard to understand that language in any other 
way. But Congress has an opportunity. You should not let that 
go past.
    If there is, you know, any place where the Leahy vetting 
requirements should really be, you know, doubled down on, it is 
in this new strategy that the United States has for countering 
terrorism through these partnerships. That makes Leahy even 
more critical than it has ever been. And if this goes through 
with that notwithstanding language in it, it risks really 
gutting these important human rights laws.
    Ms. Margon. I would second that. It is a huge red flag for 
us, and very, very concerning. And it doesn't quite align with 
what the President said in his West Point speech. And if you 
look at the Syrian opposition, nobody in the administration 
talks about this new fund to go to the Syrian opposition unless 
they are talking about the vetted Syrian opposition.
    And so the language that was sent up to Capitol Hill 
doesn't meet with the rhetoric that we have been hearing out of 
the administration, so it is very worrisome if it is 
implemented in that way.
    Mr. Smith. I do have one final question, because I did ask 
about INVEST. The Google search, INVEST--and thank you for your 
patience, especially with that very long voting that we had on 
the House floor, but--and then the input that comes in from 
NGOs and the human rights community, does the State Department, 
and DRL in particular, as well as the Embassies, have a 
sufficiently broad net to receive information from 
whistleblowers and people who--like a mayor who may know of 
something that needs to be told about what happened in his 
city, or an NGO that is indigenous in Nigeria, are we getting 
enough by way of a channel of information in that third part of 
the information flow?
    Yes?
    Ms. Margon. I can talk about that a tiny bit, since we do a 
lot of the work. I think, again, it depends. It is case by 
case. It depends a lot on both the international and local 
organizations, the contacts that the officers have with the 
defense attache, and the political officers in the Embassy.
    In the case of Nigeria, I think there is a lot of 
information flow. For Human Rights Watch, one of the things we 
have been trying to do a better job on when we do our research 
and reporting is be as clear as we can about the units that we 
observe and to get the information that will enhance Leahy 
vetting, whether it be the name we are told repeatedly from the 
State Department, date of birth, which obviously is very hard 
to get, but we try to include as much specific detailed 
information as we can to help that, and to pass that through 
both the Embassy channels and then back it up here in 
Washington.
    And we work with some of the local organizations to do that 
as well, and we encourage the Embassy officers to reach out and 
to hold meetings in as much capacity as they can.
    Mr. Smith. Yes?
    Ms. Massimino. Again, I would just underscore that there 
are these human rights defender principles that, if they were 
fully implemented everywhere, there is nothing about them that 
specifically relates to Leahy, but it would in essence make it 
the practice of the U.S. Government to establish the kinds and 
depths of relationships with NGOs in these countries that would 
produce more detailed information that would make the Leahy 
vetting process work better.
    Mr. Smith. Yes. Ms. Blanchard?
    Ms. Blanchard. One comment on the INVEST system. I think 
this online database is an incredible tool. You mentioned the 
issue of trafficking earlier. From my understanding, the State 
Department is trying to input a variety of other not 
necessarily gross human rights abuse related information, 
including on corruption and trafficking and other serious 
concerns on units when they have that information.
    But then, of course, that goes back to the issue of time 
and resources to actually put that information into the system. 
So, again, going back to the 13 people staffing this at 
headquarters.
    Mr. Smith. I want to thank all of you for your 
extraordinarily incisive testimony, the expertise that you have 
brought to the subcommittee. This will be widely shared with my 
colleagues, and so thank you so very much, because I think it 
comes at a very, very important pivotal point.
    And our hope is that more service members will be trained 
and trained to be effective, but also adequately and robustly 
vetted for human rights abuses, so that these troops are the 
kind of people we can be proud of, and Nigerians and others in 
other countries can be proud of.
    I thank you, and the hearing is adjourned.
    [Whereupon, at 5:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
